No. 21A85
IN THE

Supreme Court of the United States
UNITED STATES OF AMERICA,
Applicant,
v.
STATE OF TEXAS, et al.,
Respondents.
ON APPLICATION TO VACATE THE STAY PENDING APPEAL ISSUED BY
THE UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I, Alan E. Schoenfeld, a member of
the bar of this Court, certify that the accompanying Motion for Leave to File Brief as
Amici Curiae contains 742 words and the Brief of Planned Parenthood of Greater Texas
Surgical Health Services, Planned Parenthood South Texas Surgical Center,
Comprehensive Health of Planned Parenthood Great Plains, Planned Parenthood of
Arkansas & Eastern Oklahoma, Planned Parenthood Center for Choice, and Planned
Parenthood of The Rocky Mountains as Amici Curiae in Support of The United States
of America contains 2,693 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
Executed on October 18, 2021.

ALAN E. SCHOENFELD
Counsel of Record
WILMER CUTLER PICKERING
HALE AND DORR LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007
(212) 937-7294
alan.schoenfeld@wilmerhale.com

